   2009 FISMA Executive Summary
   Report




                            REDACTED PUBLIC VERSION
                                                      March 26, 2010
                                                      Report No. 472
Prepared by C5i Federal, Inc.
                                                 UNITED STATES
                                SECURITIES AND EXCHANGE COMMISSION
                                           WASHINGTON, D.C.    20S49


     OFFICE OF
     OI'"FICE OF
INSPECTOR GENERAL
INSPECTOR    GENERAL


                                         MEMORANDUM
                                                March 26, 2010


            To:              Charles Boucher, Director, Office of Information Technology

            From:            H. David Kotz, Inspector General, Office of Inspector General   (OIG)t'Jdk-
            Subject:         2009 F/SMA Executive Summary, Report No. 472

            This memorandum transmits the U.S. Securities and Exchange Commission,
            OIG's final report on the 2009 Federal Information Security Management Act of
            2002 (FISMA) Evaluation. This report provides the Commission with a summary
            of the responses OIG reported in the FISMA Web Portal to the Office of
            Management and Budget on November 2009.

            This report does not contain any recommendations. Based on the comments
            received to the formal draft report and our assessment of the comments, we
            revised the report accordingly.

            Should you have any questions regarding this report, please do not hesitate to
            contact me. We appreciate the courtesy and cooperation that you and your staff
            extended to our contractor and auditor.

            Attachment


            cc:        Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
                       Diego Ruiz, Executive Director, Office of the Executive Director
                       Lewis W. Walker, Deputy Director and Chief Technology Officer, Office of
                         Information Technology
                       Todd Scharf, Chief Information Security Officer, Office of Information
                         Technology
                       Barbara Stance, Chief Privacy Officer, Office of Information Technology
2009 FISMA Executive Summary Report

                            Executive Summary
In August 2009, the U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG), contracted with C5i Federal,
Inc. (C5i) to assist with the completion and coordination of the OIG’s input to the
Commission’s response to Office of Management and Budget (OMB)
Memorandum M-09-29 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. The OMB
memorandum provides the instructions and templates for meeting the fiscal year
(FY) 2009 reporting requirements under the Federal Information Security
Management Act of 2002 (FISMA), Title III, Pub. L. No. 107-347.

C5i commenced work on this project in September 2009, after the final FISMA
questionnaires were promulgated by OMB. C5i’s tasks included completing the
OIG portion of the FISMA reporting template (Section C) and developing an
Executive Summary Report that communicates the Inspector General’s (IG)
response to the 2009 FISMA submission. In addition, the OIG requested
separate reports examining the Commission’s implementation of encryption
technology and the Commission’s Privacy Program.

For 2009, OMB only accepted annual FISMA reports that were submitted online,
using a new automated reporting tool. This tool was designed to allow manual
data entry, as well as the automated upload of data. This report includes our
recommended responses to the questions in the 2009 FISMA questionnaires,
which were promulgated separately by OMB.

Background. FISMA, 44 U.S.C. § 3541, et seq., is a United States federal law
enacted in 2002 as Title III of the E-Government Act of 2002. The statute
recognizes the importance of information security to the economic and national
security interests of the United States and requires each federal agency to
develop, document, and implement an agency-wide program to provide
information security for the information and information systems that support the
operations and assets of the agency, including those provided or managed by
another agency, contractor, or other source.

FISMA requires agency program officials, chief information officers, and OIG’s to
conduct annual reviews of the agency’s information security and privacy
programs and report the results to OMB. OMB then uses the data to assist in its
oversight responsibilities and to prepare its annual report to Congress on agency
compliance with the statute.


2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                         ii
FISMA provides the framework for securing the federal government’s information
technology. All agencies must implement the requirements of FISMA and report
annually to OMB and Congress on the effectiveness of their Privacy Program
and Privacy Impact Assessment (PIA) processes. OMB uses the information to:

       •   Help evaluate agency-specific and government-wide privacy
           performance;
       •   Develop its annual security report to Congress;
       •   Assist in improving and maintaining adequate agency privacy
           performance; and
       •   Assist in the development of the E-Government Scorecard under the
           President’s Management Agenda.

Objective. The objective for the FISMA assessment was to independently
evaluate and report on how the Commission has implemented its mandated
information security requirements. This report provides background information,
clarification, and recommendations regarding the OIG’s response and input to
Section C of the OMB reporting template. The 2009 reporting categories and
questions are generally the same as they were in 2008, however, some were
updated based on security and privacy policies issued throughout the year.

Results. The key findings and results for the 2009 FISMA evaluation include:

   •   The Commission operates a total of 48 systems. Of those, 46 have been
       evaluated as having a moderate system impact level. The remaining two
       systems were evaluated as having a low system impact level.

   •   The SEC routinely performs oversight and evaluations to ensure
       information systems used or operated by a contractor of the agency, or
       other organizations on behalf of the agency, meet applicable
       requirements.

   •   The Commission has developed an inventory of major information
       systems. Performing a full inventory of all systems exceeded the scope of
       our effort, but through our interviews, document reviews, and research, we
       ascertained that the inventory is approximately 90 to 100 percent correct.

   •   The Commission’s Plan of Actions & Milestones (POA&M) process
       provides an effective roadmap for continuous security improvement,
       assists with prioritizing corrective action and resource allocation, and is a
       valuable management and oversight tool.

   •   The Commission’s overall Certification and Accreditation (C&A) program
       is assessed as being excellent, and in compliance with applicable
       regulatory and statutory requirements.



2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                          iii
   •   The Privacy Office has made significant progress in its development of
       privacy resources, in outreach within the Commission and Regional
       Offices, and in benchmarking externally with other agencies. However,
       the policies are still in draft form and therefore, the program is not fully
       implemented throughout the Commission. Further details about this
       matter are provided in a separate report.

   •   The Commission has developed and disseminated formal, documented,
       configuration management policies and implementing guidance that
       satisfactorily addresses security configuration management requirements.
       While not a specific question in the configuration management section of
       the OMB reporting template, we found some areas of concern in the
       SEC’s encryption policies and procedures that are further detailed in a
       separate report.
   •   Federal Desktop Core Configuration (FDCC) has been successfully
       implemented on all workstations and laptops and appropriate language
       from Federal Acquisition Regulation (FAR) 2007-004, which modified Part
       39—Acquisition of Information Technology, is now included in all contracts
       related to common security settings.
   •   The Commission has robust incident prevention, detection, response, and
       reporting capabilities and follows documented policies and procedures for
       reporting incidents internally, to the United States Computer Emergency
       Readiness Team (US-CERT), and to law enforcement.

   •   As of November 15, 2009, Cyber Security Awareness training was
       successfully completed by 4,101 of 4,383 (94 percent) users.

   •   The Commission has monitoring systems and policies regarding the use
       of collaborative web technologies and peer-to-peer file sharing in IT
       security awareness training, ethics training, and other agency-wide
       training.

Recommendations. This report does not contain any formal recommendations.
However, the OIG proposes that OIT use this Executive Summary report to
develop the Commission’s annual consolidated FISMA Report, in accordance
with OMB Memorandum M-09-29 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management.




2009 FISMA Executive Summary Report                                       March 26, 2010
Report No. 472
                                          iv
TABLE OF CONTENTS
Executive Summary ................................................................................................ ii

Table of Contents ................................................................................................... v

Background and Objective
     Background ....................................................................................................... 1
     Objective ............................................................................................................ 2

Results
     Question 1: FISMA Systems Inventory .............................................................. 3
     Question 2: Certification & Accreditation, Security Controls Testing, and
      Contingency Plan Testing ................................................................................. 4
     Question 3: Agency Oversight of Contractor Systems and Quality of
      Agency Systems Inventory................................................................................ 5
     Question 4: Evaluation of Agency Plan of Actions and Milestones Process ...... 9
     Question 5: OIG Assessment of the Certification and Accreditation
      Process ........................................................................................................... 12
     Question 6: OIG Assessment of Privacy Program and PIA Process................ 17
     Question 7: Configuration Management........................................................... 23
     Question 8: Incident Reporting......................................................................... 28
     Question 9: Security Awareness Training ........................................................ 37
     Question 10: Peer-to-Peer File Sharing ........................................................... 38

Appendices
    Appendix I: Acronyms. .................................................................................... 40
    Appendix II: Scope and Methodology.............................................................. 42
    Appendix III: Criteria........................................................................................ 44
    Appendix IV: Figure 1 CSAM Screenshot ....................................................... 47
    Appendix V: Figure 2 Inventory of GAO POA&Ms .......................................... 48
    Appendix VI: Figure 3 POA&M Entry Page. .................................................... 49
    Appendix VII: Figure 4 POA&M Page ............................................................. 50
    Appendix VIII: Figure 5 SEC Custom Query ................................................... 51
    Appendix IX: Figure 6 System Inventories ...................................................... 52
    Appendix X: Figure 7 Incident Escalation Flow Chart ..................................... 53
    Appendix XI: Figure 8 Cyber Security Awareness Training............................. 54
    Appendix XII: Management Comments........................................................... 55




2009 FISMA Executive Summary Report                                                                 March 26, 2010
Report No. 472
                                                         v
Tables
     Table 1: SEC Agency and Contractor Systems and Impact Level. .................... 3
     Table 2: System Impact Levels for C&A, Tested Systems, and
       Contingency Plans .......................................................................................... 5
     Table 3: OIG Response to Question 3 .............................................................. 8
     Table 4: OIG Response to Question 4. ........................................................... 11
     Table 5: OIG Response to Question 5 ............................................................ 16
     Table 6: OIG Response to Question 6 ............................................................ 22
     Table 7: OIG Response to Question 7 ............................................................ 26
     Table 8: Configuration Policy for Each OS/Platform/System........................... 27
     Table 9: Laptop Theft Response Procedures.................................................. 31
     Table 10: Unauthorized Access Response Procedure.................................... 32
     Table 11: OIG Response to Question 8 .......................................................... 36
     Table 12: OIG Response to Question 9 .......................................................... 38

Chart
     Chart 1: CSIRT Organization .......................................................................... 30




2009 FISMA Executive Summary Report                                                           March 26, 2010
Report No. 472
                                                     vi
Background and Objective

Background

In June 2009, the U.S. Securities and Exchange Commission (SEC or
Commission), Office of Inspector General (OIG), contracted with C5i Federal,
Inc. (C5i) to assist with the completion and coordination of the OIG’s input to the
Commission’s response to the Office of Management and Budget (OMB)
Memorandum M-09-29 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. This memorandum
provides instructions and templates for meeting the FY 2009 reporting
requirements under the Federal Information Security Management Act of 2002
(FISMA), Title III, Pub. L. No. 107-347.

C5i commenced work this evaluation in September 2009, though some activities
where delayed until the final online FISMA reporting tools were promulgated by
OMB in late October 2009. The purpose of this report is to provide background
information, clarification, and recommendations regarding OIG’s responses and
input to Section C of the OMB reporting template. The 2009 reporting categories
and questions are generally the same as they were in 2008. However, some
areas were updated based on security and privacy policies issued during the
year. Again this year, OMB developed a formal Privacy Assessment
Questionnaire that allows agencies the ability to conduct privacy evaluations.

FISMA provides the framework for securing the Federal Government’s
information technology. All agencies must implement the requirements of FISMA
and report annually to the OMB and Congress on the effectiveness of their
Privacy Program and Privacy Impact Assessment (PIA) process. OMB uses the
information to help evaluate agency-specific and government-wide Privacy
performance, develop its annual security report to Congress, assist in improving
and maintaining adequate agency privacy performance, and assist in the
development of the E-Government Scorecard under the President’s Management
Agenda.

The following additional documentation is also required to be forwarded, along
with the consolidated annual FISMA report:

   •   Breach Notification Policy, if changed significantly since last year’s report;
   •   Progress update on eliminating unnecessary use of Social Security
       Numbers (SSN); and

2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                       Page 1
   •   Progress update on review and reduction of holdings of Personally
       Identifiable Information (PII).

Agencies are required to submit to OMB their most current documentation
related to OMB Memorandum M-07-16, of May 22, 2007, Safeguarding Against
and Responding to the Breach of Personally Identifiable Information. This
information should be appended to the Commission’s annual report and includes
the agency’s breach notification policy; implementation plan and progress update
on eliminating unnecessary use of SSN; and implementation plan and progress
updates on review and reduction of holdings of PII.

Tasks performed by C5i included completing the OIG portion of the FISMA
reporting template (Section C); developing the Executive Summary Report of
OIG’s Input; and developing a report for the Senior Agency Official for Privacy
(SAOP) that assessed the Commission’s privacy program. In addition, C5i
issued a report examining the Commission’s implementation of encryption
technology.

This is the third year that OMB guidance provided direction for OIG and Office of
Information Technology (OIT) heads to coordinate a consensus with the SAOP
on answers to the Privacy questionnaire. In previous years, the OIG
independently reported on how the Chairman, Chief Information Officer (CIO),
and program officials referred to Privacy training and creation of PIAs for the
various information systems. Therefore, the agency’s consolidated report
presents a cohesive view of the Commission’s IT privacy accomplishments and
areas for improvement.

Objective
The objective for the FISMA assessment was to independently evaluate and
report on how the Commission implemented its mandated information security
requirements.




2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                      Page 2
                                        Results
Response to OMB Questions
C5i researched the applicable issue areas and gathered the information needed
to complete the OIG’s portion of the FISMA reporting template. Our responses to
the template questions were based on the results we found.

Question 1: FISMA Systems Inventory
Identify the number of agency and contractor systems by component and Federal
Information Processing Standards (FIPS) 199 impact level (low, moderate, high).
Please also identify the number of systems that are used by your agency but
owned by another federal agency (i.e., ePayroll, etc.,) by component and FIPS
199 impact level.

Response. C5i identified a total of 48 systems. OIT evaluated 46 of these
systems as having a moderate FIPS system level impact level and the remaining
two systems as having low FIPS system impact levels. Forty-one of these
systems are SEC systems and five are contractor-owned or operated systems.
We found that the two low-level FIPS system impact systems are contractor
systems, as illustrated in Table 1 below.

        Table 1: SEC Agency and Contractor Systems and Impact Level
         System Impact Level     Agency      Contractor Total
                                 Systems     Systems
         High System Impact Level             0         0            0
         Moderate System Impact              41         5           46
         Level
         Low System Impact Level              0         2            2
         Not Categorized                     0          0           0
         Total                               41         7           48
         Source: OMB FISMA Web Portal

Agency systems include all systems hosted internally to the SEC that have a
signed Categorization Memorandum formally assigning it a FIPS-199 impact
level. The SEC continues to investigate legacy applications, some of which may
eventually be reported in the inventory as distinct enterprise systems. Others
being investigated may include Microsoft Office-based spreadsheets or Access
database tools that will be bundled as part of the General Support System
(GSS), but are not reported as distinct systems. Similarly, the SEC considers all
systems hosted at non-SEC facilities to be contractor systems. This includes
both systems hosted by Federal agencies subject to FISMA and systems hosted
by commercial firms that are not directly subject to FISMA.
2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                         Page 3
Our results are based on data gathered from a number of sources including the
Microsoft Excel spreadsheet entitled Compliance Workbook (a document the
SEC/OIT office maintains and provided to the OIG), meetings and interviews that
were conducted with OIT staff members. In addition, OIT officials reviewed and
verified these numbers and concurred with our assessment.

We entered the data in Table 1 above, into the appropriate entry fields in the
OMB on-line OIG FISMA reporting tool.

Question 2: Certification & Accreditation, Security Controls
Testing, and Contingency Plan Testing
For the Total Number of Systems identified by Component/Bureau and FIPS
System Impact Level in the table for Question 1, identify the number and
percentage of systems which have: a current certification and accreditation,
security controls tested and reviewed within the past year, and a contingency
plan tested within in accordance with policy.

Response. Certification and Accreditation (C&A) is the process used to evaluate
systems and major applications ensuring adherence to formal and established
security requirements that are well documented and authorized. C&A is required
by FISMA. All systems and applications that reside on U.S. government
networks must be evaluated with a formal C&A before being put into production.
Systems are re-accredited every three years or sooner if major changes are
made.

As shown below in Table 2, C&A has been performed on 48 systems, and 41
systems security controls were tested and reviewed during the past year. We
also found that in accordance with applicable policies, contingency plan testing
was performed on 30 systems.




2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 4
       Table 2: System Impact Levels for C&A, Tested Systems, and
       Contingency Plans
        System Impact      System with      Tested     Contingency
        Level                  C&A         Systems         Plan

        High System Impact            0            0               0
        Level
        Moderate System               46          41              30
        Impact Level
        Low System Impact             2            0               0
        Level
        Not Categorized                0           0               0
        Total                         48          41              30
       Source: OMB FISMA Web Portal

For purposes of FISMA reporting, the Commission identified C&A for all agency
and contractor’s systems for which a formal authority to operate (accreditation)
was granted by the SEC Designated Accrediting Authority (i.e., the Chief
Information Officer (CIO)) within a three year period. An additional three month
extension or grace period is further permissible. For example, a system that was
accredited on September 1, 2005 would be counted as accredited if the re-
accreditation was signed and approved within 39 months, (December 1, 2009).
Also, the SEC counted all systems scheduled for accreditation on or before
September 5, 2009, the cutoff date for the annual report. Beginning in April
2010, the SEC anticipates testing Disaster Recovery plans for systems that were
not tested during the past 12 months.

The data in Table 2 was entered in the appropriate data entry fields on the OMB
on-line FISMA reporting tool, as shown above.


Question 3: Agency Oversight of Contractor Systems and
Quality of Agency Systems Inventory

   •   The agency performs oversight and evaluation to ensure information
       systems used or operated by a contractor of the agency or other
       organization on behalf of the agency meet the requirements of FISMA,
       OMB policy and National Institute of Standards and Technology (NIST)
       guidelines, national security policy, and agency policy.

   •   Does the agency have policies for oversight of contractors? Yes/No.
       If the answer above is Yes, Is the policy implemented?




2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                       Page 5
   •   The agency has a materially correct inventory of major information
       systems (including national security systems) operated by or under the
       control of such agency. Yes/No.

   •   Does the agency maintain an inventory of interfaces between the agency
       systems and all other systems, such as those not operated by or under
       the control of the agency? Yes/No.

   •   Does the agency require agreements for interfaces between systems it
       owns or operates and other systems not operated by or under the control
       of the agency? Yes/No.

   •   The IG generally agrees with the CIO on the number of agency-owned
       systems. Yes/No.

   •   The IG generally agrees with the CIO on the number of information
       systems used or operated by a contractor of the agency or other
       organization on behalf of the agency. Yes/No.
   •   The agency inventory is maintained and updated at least annually.
       Yes/No.

   •   If the IG does not indicate that the agency has a materially correct
       inventory, please identify any known missing major systems by
       Component/Bureau, the Unique Project Identifier associated with the
       systems as presented in the FY 2009 Exhibit 300 (if known), and indicate
       if the system is an agency or contractor system.

Response. C5i’s analysis revealed that that the SEC always performs oversight
and evaluation to ensure information systems used or operated by a contractor of
the agency, or other organization(s) on behalf of the agency, meet FISMA
requirements, OMB policy, NIST guidelines, National Security policy, as well as
agency policy.

C5i based its assessment on interviews conducted with several people who are
responsible for managing and administering the Commission’s information
systems security program, our observations, and a review of policies and
procedures provided by OIT. We also determined the SEC implemented
appropriate policies 24-1.2 Introduction of New Technology Into the Agency, 24-
1.6 Enterprise Architecture, OD 24-03.01 Process and Product Assurance
Management, OD 24-03.01.01 Process and Product Assurance Management:
Quality Management, to perform the oversight and evaluation of contractor
information systems.


2009 FISMA Executive Summary Report                                  March 26, 2010
Report No. 472
                                      Page 6
The quality management (QM) policy “identifies the use of QM for the systematic
implementation and use of planning, control, assurance, and improvement
activities to align the business goals, quality objectives, and process measures.
QM may involve providing information on standards, facilitating a team, or
identifying and analyzing a process. Another expectation of QM is to collect
measurement data and lessons learned as input to other processes and product
assurance management activities. QM resources act as consultants in
continuous process improvement activities.” QM has specific objectives, such as
quality planning, quality control, quality assurance, quality improvement, and
helping to ensure successful implementation of a defined program. OIT’s
Configuration Management and Quality Assurance (CM/QA) branch is
responsible for conducting the review, control, and enforcement of processes
and product assurance for IT products within OIT and the SEC. They further
ensure that quality planning and quality controls are addressed.

In questions 3(c) and 3(d), we found that the Commission developed a complete
inventory of major information systems that are operated by or under the control
of the Commission. These include an identification of the interfaces between
each of the systems and all other systems or networks, including those that are
not operated by or under the control of the Commission. The accuracy of the
inventory is impossible to assess within the scope of this effort. However, we
estimate that the inventory is approximately 90 to 95 percent complete. In March
2008, the OIG conducted an inspection of OIT control over Commission laptops
and found OIT did not, at that time, have the proper accountability over laptops.

Based on the finding from the 2008 OIG Inspection report, OIT established an
asset management program and issued OD 24-05.09 (01.0) IT Asset
Management Program and OIT-00015-002.0 Asset Inventory Procedure that
clearly outlines the roles and responsibilities of SEC personnel for asset
management and the accountability of assets. The directive supplements the
prescribed property management control and accountability procedures
contained in SEC Regulation (SECR) 9-2, Property Management Program. We
have also reviewed the OIT Asset Inventory report which fully documents all
facets of the asset (type of asset, operating system, peripherals, owner,
department/organization, serial number(s), associated inventory bar code, etc.).
In addition, while we are unable to verify this inventory with 100 percent
accuracy, the inventory spreadsheet is a comprehensive document and is
updated on a regular basis. Additional documents reviewed: OIT-0056.001.0
Employee Clearance and Termination Tracking Procedure and OIT-00057.001.0
– Maintenance and Update of IT Equipment in the Property Tracking System.

Regarding question 3(e), we determined the SEC does require agreements to be
in place for interfaces between systems it owns or operates and other systems
not operated by or under the control of the agency. Several agreements were

2009 FISMA Executive Summary Report                                  March 26, 2010
Report No. 472
                                      Page 7
provided for C5i’s review. These agreements are comprehensive and include
detailed information regarding the purpose of the connection, the responsibilities
of each party, a description of the systems or networks to be interconnected,
procedures for responding to security incidents, disaster and contingency plans,
funding considerations, and numerous administrative details. As part of our
review, we examined Memoranda of Understanding and Interconnection Security
Agreements between the SEC and the Department of Justice, Department of
Interior, and other government and contracting entities.

In questions 3(f), 3(g), and 3(h), the OIG generally agrees with the CIO on the
number of agency-owned systems, as well as the number of information systems
used or operated by SEC contractors. We also noted that the inventory is
maintained and updated on an ongoing basis. As noted above, C5i reviewed the
inventory processes and procedures. Although we obviously cannot assess the
accuracy or completeness of the inventory without conducting an independent
inventory, the inventory spreadsheet is a comprehensive document and is
updated on a regular basis. 1

Based on our review, we answered question 3 as depicted in Table 3 below.

Table 3: OIG Response to Question 3
                                                                         Recommended
    ID     Questions from OMB Questionnaire
                                                                         Response
           The agency performs oversight and evaluation to ensure
           information systems used or operated by a contractor of the
    3      agency or other organization on behalf of the agency meet          Yes
           the requirements of FISMA, OMB policy and NIST
           guidelines, national security policy, and agency policy.
    3(a)   Does the agency have policies for oversight of contractors?        Yes
    3(b)   If the answer above is Yes, Is the policy implemented?             Yes
           The agency has a materially correct inventory of major
    3(c)   information systems (including national security systems)          Yes
           operated by or under the control of such agency.
           Does the agency maintain an inventory of interfaces
    3(d)   between the agency systems and all other systems, such as          Yes
           those not operated by or under the control of the agency?
           Does the agency require agreements for interfaces between
    3(e)   systems it owns or operates and other systems not operated         Yes
           by or under the control of the agency?
           The IG generally agrees with the CIO on the number of
    3(f)
           agency-owned systems.
                                                                              Yes


1
 Additional references: OIT-00057.001.0 Maintenance and Update of IT Equipment in the
Property Tracking System and OIT-0056.001.0 Employee Clearance and Termination Tracking
Procedure.
2009 FISMA Executive Summary Report                                         March 26, 2010
Report No. 472
                                          Page 8
           The IG generally agrees with the CIO on the number of
    3(g)   information systems used or operated by a contractor of the     Yes
           agency or other organization on behalf of the agency.
           The agency inventory is maintained and updated at least
    3(h)
           annually.
                                                                           Yes
Source: OMB FISMA Web Portal

Question 4: Evaluation of Agency Plan of Actions and
Milestones Process

•     Assess whether the agency has developed, implemented, and is managing
      an agency-wide plan of action and milestones (POA&M) process, providing
      explanatory detail in the area provided.

•     Has the agency developed and documented an adequate policy that
      establishes a POA&M process for reporting IT security deficiencies and
      tracking the status of remediation efforts? Yes/No.

•     Has the agency fully implemented the policy? Yes/No.

•     Is the agency currently managing and operating a POA&M process?

•     Is the agency's POA&M process an agency-wide process, incorporating all
      known IT security weakness, including IG/external audit findings associated
      with information systems used or operated by the agency or by a contractor of
      the agency or other organization on behalf of the agency? Yes/No.

•     Does the POA&M process prioritize IT security weakness to help ensure
      significant IT security weaknesses are corrected in a timely manner and
      receive appropriate resources? Yes/No.

•     When an IT security weakness is identified, do program officials (including
      CIOs, if they own or operate a system) develop, implement, and manage
      POA&Ms for their system(s)? Yes/No.

•     For systems reviewed:

                 a. Are deficiencies tracked and remediated in a timely manner? Yes/No.
                 b. Are the remediation plans effective for correcting the security
                    weakness? Yes/No.
                 c. Are the estimated dates for remediation reasonable and
                    adhered to? Yes/No.



2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                           Page 9
•   Do Program officials and contractors report their progress on security
    weakness remediation to the CIO on a regular basis (at least quarterly)?
    Yes/No.

•   Does the Agency CIO centrally track, maintain, and independently
    review/validate POA&M activities on at least a quarterly basis? Yes/No.

Response. In response to question 4 on the OMB template, we determined that
the Commission maintains an effective POA&M process. The Commission
effectively consolidates agency plans to correct security weaknesses found
during various security reviews, including audits performed by the OIG, system
certification and accreditation, Government Accountability Office (GAO) audits,
financial system audits, and critical infrastructure vulnerability assessments. The
POA&Ms are tracked using a comprehensive compliance spreadsheet which
allows for quarterly tracking and updates. Our assessment is that the OIT’s
POA&M process provides an effective roadmap for continuous security
improvement, assists with prioritizing corrective action and resource allocation,
and is a valuable management and oversight tool.

In regards to questions 4(a) and 4(b), we found that the SEC’s POA&M process
is defined and enforced through SEC Policy II 24-04.10.01 (02.0) IT Security
Certification and Accreditation, dated June 29, 2005. The process has been
effectively extended throughout the Commission, including regional offices. The
process is centrally managed, includes both Commission and contractor
operated systems, and appears to include all known IT security weaknesses
associated with Commission systems. In general, the plan will be developed by
the C&A Coordinator, with assistance from the Chief Information Security Officer
(CISO) and OIT Technical Liaison, and will capture the decisions made regarding
mitigating and/or accepting each of the risks enumerated in the Risk Assessment
Report. The POA&M describes each risk, lists the selected mitigation (if any)
and its cost (in staff or other resources), assigns responsibility for implementing
the mitigation, lists the completion date for the mitigation activity, and provides
justification if the risk is to be accepted. The C&A Coordinator is responsible for
ensuring resources are applied to POA&M activities to meet the milestones
therein. The CISO is responsible for monitoring progress of mitigation activities
described in the POA&M, and for periodic security compliance reviews of all
information systems.

In questions 4(c), 4(f), 4(h), and 4(i), we observed an effective POA&M process
has been implemented. When an IT security weakness is identified, program
officials quickly develop, implement, and manage POA&Ms for Commission
systems. The progress of IT security weakness is reported to the CIO on a
quarterly basis, it is centrally tracked, maintained, and POA&M activities are
reviewed on a quarterly basis. In addition, OIG recommendations are routinely

2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 10
incorporated into the POA&M process. The POA&M process effectively
prioritizes IT security weaknesses to help ensure significant IT security
weaknesses are addressed in a timely manner and they receive appropriately
resources to address the deficiency. While no systems were formally reviewed
during this evaluation, our responses and conclusions are based on our review of
selected POA&M, C&A packages, and interviews conducted with OIT personnel.

In question 4(d), we found the POA&M process has been extended throughout
the Commission, to include the regional offices. The process is centrally
managed and it includes both Commission and contractor operated systems.
Further, it appears to also include known IT security weaknesses associated with
the Commission’s systems.

Concerning 4(e) and 4(f), we found the POA&M process effectively prioritizes IT
security weakness to help ensure significant IT security weaknesses are
corrected in a timely manner. We also noted that the POA&M process is fully
supported by senior leadership, and that appropriate resources are engaged to
manage risks to SEC systems and information.

In questions 4(g)1, 4(g)2 and 4(g)3, we found deficiencies are tracked and
remediated in a timely manner, the remediation plans are effective in correcting
security weaknesses, and the estimated dates for remediation are reasonable
and are adhered to. While the SEC is no longer required to submit quarterly
updates of their POA&Ms, they have continued to update their standard
procedure quarterly to ensure timely remediation and closure of POA&M findings.

Based on our review, we entered the data shown below in Table 4, in response
to question 4.

Table 4: OIG Response to Question 4
                                                                        Recommended
 ID      Question from OMB Questionnaire
                                                                        Response
         Assess whether the agency has developed, implemented, and
         is managing an agency-wide plan of action and milestones
 4                                                                             Yes
         (POA&M) process, providing explanatory detail in the area
         provided.
         Has the Agency developed and documented an adequate
         policy that establishes a POA&M process for reporting IT
 4(a)                                                                          Yes
         security deficiencies and tracking the status of remediation
         efforts?
 4(b)    Has the Agency fully implemented the policy?                          Yes
         Is the Agency currently managing and operating a POA&M
 4(c)                                                                          Yes
         process?



2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                      Page 11
                                                                             Recommended
    ID     Question from OMB Questionnaire
                                                                             Response
           Is the agency’s POA&M process an agency-wide process,
           incorporating all known IT security weakness, including
    4(d)   IG/external audit findings associated with information systems           Yes
           used or operated by the agency or by a contractor of the
           agency or other organization on behalf of the agency?
           Does the POA&M process prioritize IT security weakness to
    4(e)   help ensure significant IT security weaknesses are corrected             Yes
           in a timely manner and receive appropriate resources?
           When an IT security weakness is identified, do program
           officials (including CIOs, if they own or operate a system)
    4(f)                                                                            Yes
           develop, implement, and manage POA&Ms for their
           system(s)?
    4(g)   For Systems Reviewed:                                                    Yes
    4(g)
           Are deficiencies tracked and remediated in a timely manner?              Yes
    1
    4(g)   Are the remediation plans effective for correcting the security
                                                                                    Yes
    2      weakness
    4(g)   Are the estimated dates for remediation reasonable and
                                                                                    Yes
    3      adhered to?
           Do Program officials and contractors report their progress on
    4(h)   security weakness remediation to the CIO on a regular basis              Yes
           (at least quarterly)?
           Does the Agency CIO centrally track, maintain, and
    4(i)   independently review/validate POA&M activities on at least a             Yes
           quarterly basis?
Source: OMB FISMA Web Portal


Question 5: OIG Assessment of the Certification and
Accreditation Process

•     Provide a qualitative assessment of the agency’s certification and
      accreditation process, including adherence to existing policy, guidance, and
      standards. Agencies shall follow NIST Special Publication 800-37, Guide for
      the Security Certification and Accreditation of Federal Information Systems
      (May 2004) for certification and accreditation work initiated after May 2004.
      This includes use of the FIPS 199 (February 2004), Standards for Security
      Categorization of Federal Information and Information Systems, to determine
      a system impact level, as well as associated NIST documents used as
      guidance for completing risk assessments and security plans. Provide
      explanatory detail in the area provided.
•     Has the Agency developed and documented an adequate policy for
      establishing a certification and accreditation process that follows the NIST
      framework? Yes/No.

2009 FISMA Executive Summary Report                                           March 26, 2010
Report No. 472
                                          Page 12
•   Is the Agency currently managing and operating a C&A process in
    compliance with its policies? Yes/No.

        •   For systems reviewed, does the C&A process adequately provide:
            (Check all that apply)
                      o Appropriate risk categories
                      o Adequate risk assessments
                      o Selection of appropriate controls
                      o Adequate testing of controls
                      o Regular monitoring of system risks and the adequacy of
                          controls

        •   For systems reviewed, is the Authorizing Official presented with
            complete and reliable C&A information to facilitate an informed system
            Authorization to Operate decision based on risks and controls
            implemented? Yes/No.

Response. C5i found the overall C&A program is excellent. The C&A and risk
management processes are well defined, mature, well managed, and compliant
with applicable regulatory and statutory requirements. The full C&A packages for
the GSS and Automated Procurement System (APS) were provided and were
fully reviewed as part of the assessment. We reviewed security plans and the
security planning processes, systems tests and evaluations, security control
testing procedures and results, incident handling, security awareness training,
and configuration and patch management. In 2008, the Commission purchased
the U.S. Department of Justice sponsored Cyber Security Assessment and
Management (CSAM) application. CSAM is a web-enabled system capable of
assisting a Federal agency in meeting its obligations for C&A activities as defined
by the OMB, NIST, and FISMA. A sample CSAM screen shot is shown in Figure
1, located in the Appendices of this report.

CSAM enables the SEC to accomplish the following tasks:

    •   Store information about each agency system and application (inventory of
        systems).
    •   Create and maintain the System Security Plan for each system.
    •   Store system-specific documents including Disaster
        Recovery/Contingency Plan, Authority to Operate Memo, Interface
        Agreements, etc.
    •   Store and track vulnerabilities in system POA&M.
    •   Perform and store results of Risk Assessments and Security Test and
        Evaluations (ST&E) on each system following the current NIST
        requirements (Special Publications 800-53 and 800-53A).

2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 13
    •   Produce quarterly and annual FISMA reports for OMB using mostly
        automated CSAM functionality.
    •   Produce reports showing various aspects of security in the agency’s
        systems, including management snapshots, upcoming and overdue C&A
        tasks, and detailed reports of open POA&M items.

CSAM was fully deployed at the SEC in March 2009. CSAM is externally hosted
by the Department of Justice and contains the SEC’s C&A information. CSAM
tracks system inventory, including names, security categorization of each
information system, status of C&A activities, weakness descriptions and
remediation plans in the form of POA&M, NIST 800-53 control assessment
results, as well as audit finding maintenance, monitoring, and tracking. The SEC
used CSAM to generate FISMA quarterly reports for the past two quarters. In
addition, OIT uses CSAM to track GAO and OIG audit findings. OIT Security
administers CSAM and it is used by other OIT divisions to track audit findings.
GAO’s inventory of POA&Ms is shown in Figure 2, located in the Appendices of
this report.

OIT expects use of CSAM will provide a consistent approach to C&A in the
Commission, allowing documents and status to be located and maintained in a
more efficient way than the present manual processes. CSAM is one of two
OMB Security Line of Business initiatives.

In response to question 5(a), we found the SEC has developed and documented
adequate policy for establishing a certification and accreditation process that
follows the NIST framework. The policy 2 establishes uniform policies,
responsibilities, and authorities for the C&A of major applications and general
support systems at the SEC. The policy further implements higher level policies
such as SEC Regulation (SECR) 24-04, Information Technology Security
Program, Operating Directive (OD) 24-04.10 IT Security Compliance, FISMA,
and OMB Circular A-130, Appendix III, Security of Federal Automated
Information Resources.

In question 5(b), we found that the SEC is currently managing and operating a
C&A process in compliance with its policies.

In questions 5(c)1, 2, 3, 4 and 5, we found the C&A process adequately provides
appropriate risk categories, adequate risk assessments, selection of appropriate
controls, adequate testing of controls, and regular monitoring of system risks and
the adequacy of controls. The SEC C&A program was developed using
guidance from NIST. 3 SEC Policy II 24-04.10.01 (02.0) Implementing Instruction:

2
 SEC II 24-04.10.01 (02.0) IT Security Certification and Accreditation, dated June 29, 2005.
3
 See 800-37 Guide for the Security Certification and Accreditation of Federal Information
Systems, NIST 800-53 Recommended Security Controls for Federal Information Systems and
2009 FISMA Executive Summary Report                                              March 26, 2010
Report No. 472
                                          Page 14
IT Security Certification and Accreditation (June 29, 2005) has established “the
uniform policies, responsibility, and authorities for the C&A of major applications
and general support systems at the SEC.” We reviewed data provided by SEC
(i.e., ST&E, POA&M, System Security Plan, and Risk Assessment) and all the
data provided supports our conclusion that SEC clearly applies the guidance and
best practices defined in the NIST and OMB guidance. The Commission’s C&As
are performed by an independent third-party, the Science Applications
International Corporation (SAIC), which ensures an independent evaluation and
assessment of the systems to be certified and accredited.

In question 5(d), we found the authorizing official is presented with complete and
reliable C&A information to facilitate an informed system Authorization to Operate
decision based on risks and controls implemented. As referenced in the previous
questions, the SEC has a very thorough C&A process that was developed using
NIST and OMB guidance.

Examples of POA&M entry pages are shown in Figure 3 and 4, located in the
Appendices of this report. Our response to question 5 is shown below in Table 5.




Organizations, NIST 800-53A Guide for Assessing the Security Controls in Federal Information
Systems, and OMB Circular A-130 Security of Federal Automated Information Resources.
2009 FISMA Executive Summary Report                                              March 26, 2010
Report No. 472
                                          Page 15
Table 5: OIG Response to Question 5
                                                                         Recommended
 ID       Question from OMB Questionnaire
                                                                         Response
          Provide a qualitative assessment of the agency’s
          certification and accreditation process, including adherence
          to existing policy, guidance, and standards. Agencies shall
          follow NIST Special Publication 800-37, Guide for the
          Security Certification and Accreditation of Federal
          Information Systems (May 2004) for certification and
 5        accreditation work initiated after May 2004. This includes     See text below
          use of the FIPS 199 (February 2004), Standards for
          Security Categorization of Federal Information and
          Information Systems, to determine a system impact level,
          as well as associated NIST documents used as guidance
          for completing risk assessments and security plans. Provide
          explanatory detail in the area provided.
          Has the Agency developed and documented an adequate
 5(a)     policy for establishing a certification and accreditation            Yes
          process that follows the NIST framework?
          Is the Agency currently managing and operating a C&A
 5(b)                                                                          Yes
          process in compliance with its policies?
          For systems reviewed, does the C&A process adequately
 5(c)
          provide: (check all that apply)
 5(c)1    Appropriate risk categories                                       Check Box
 5(c)2    Adequate risk assessments                                         Check Box
 5(c)3    Selection of appropriate controls                                 Check Box
 5(c)4    Adequate testing of controls                                      Check Box
          Regular monitoring of system risks and the adequacy of
 5(c)5                                                                      Check Box
          controls
          For systems reviewed, is the Authorizing Official presented
          with complete and reliable C&A information to facilitate an
 5(d)                                                                          Yes
          informed system Authorization to Operate decision based
          on risks and controls implemented?
Source: OMB FISMA Web Portal

We provided the following information in the comment box for Question 5:

         “C5i found the overall C&A program to be excellent. The
         SEC C&A program was developed using guidance from
         NIST 800-37 Guide for the Security Certification and
         Accreditation of Federal Information Systems, NIST 800-53
         Recommended Security Controls for Federal Information
         Systems and Organizations, NIST 800-53A Guide for
         Assessing the Security Controls in Federal Information
         Systems, and OMB Circular A-130 Security of Federal
         Automated Information Resources. SEC Policy II 24-
         04.10.01 (02.0) Implementing Instruction: IT Security
2009 FISMA Executive Summary Report                                          March 26, 2010
Report No. 472
                                        Page 16
       Certification and Accreditation (June 29, 2005) has
       established “the uniform policies, responsibility, and
       authorities for the C&A of major applications and general
       support systems at the SEC”. We reviewed artifacts
       provided by SEC (ST&E, POA&M, System Security Plan,
       and Risk Assessment) – specifically for GSS and APS - and
       all artifacts support our conclusion that SEC clearly applies
       the guidance and best practices defined in the NIST and
       OMB guidance. The C&As are performed by an
       independent third-party (SAIC) ensuring an independent
       evaluation and assessment of the systems to be certified
       and accredited.”

Question 6: OIG Assessment of Privacy Program and PIA
Process

•   Provide a qualitative assessment of the agency’s process, as discussed in
    Section D, for protecting privacy-related information, including adherence to
    existing policy, guidance and standards. Provide explanatory information in
    the area provided.

•   Has the Agency developed and documented adequate policies that comply
    with OMB guidance in M-07-16, M-06-15, and M-06-16 for safeguarding
    privacy-related information? Yes/No.

•   Is the Agency currently managing and operating a privacy program with
    appropriate controls in compliance with its policies? Yes/No.

•   Has the Agency developed and documented an adequate policy for Privacy
    Impact Assessments? Yes/No/NA.

•   Has the Agency fully implemented the policy and is the Agency currently
    managing and operating a process for performing adequate privacy impact
    assessments? Yes/No/NA.

Response. During our assessment of the privacy program, we identified some
significant problems with its policies, specifically the lack of approved and
implemented policies. Currently, the SEC has only finalized one privacy policy
for PII. The OIT Privacy Office has devoted a significant amount of time and
money to drafting new policy documents and implementing guidance.




2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 17
When the Privacy office transitioned to OIT, a contractor was brought in to review
the existing draft SECR 31-1 and to draft other SEC privacy policies for review.
Specifically, the contractor was to perform the tasks shown below.

             •   C.3.4.8 Policy Review and Development.

             •   C.3.4.8.1 Current Policies. The contractor shall review current
                 privacy policies, procedures, standards, and guidelines for
                 conformance with current federal requirements and industry
                 standards. The contractor shall address the content and
                 effectiveness of SEC documents for adequacy and consistency
                 with legislation, regulations, and guidelines considering the SEC
                 mission.

             •   C.3.4.8.2 New Requirements Review. The contractor shall review
                 and comment on new and proposed policies, legislation, standards,
                 and guidance from federal policy authorities such as circulars and
                 memoranda from OMB. The contractor shall keep the Privacy
                 Office informed of all new privacy issues, topics, policy, and
                 guidance in a timely manner. The contractor shall develop and
                 deliver to the TM for review and approval any required guidance
                 and memoranda on new privacy requirements, topics, and issues.

             •   C.3.4.8.3 Policy Changes. The contractor shall work with SEC
                 personnel to develop or update internal and web-based privacy
                 policies, procedures, standards, and guidelines based on new
                 federal legislation, regulations, policies, standards, and guidelines
                 to serve as the foundation of SEC privacy practices. The contractor
                 shall update the documents as required by new guidelines. The
                 contractor shall deliver these documents to the TM for review and
                 approval.

For clarity, below is OIT’s Policy development/approval process:

   1.
        a)
        b)
        c)
        d)


   2.

        a)
2009 FISMA Executive Summary Report                                       March 26, 2010
Report No. 472
                                        Page 18
        b)
        c)
        d)
        e)

   3.


   4.



        a)
        b)
        c)
        d)

   5.


   6.




   7.




   8.




   9.


The following documents are posted on OIT’s website to assist in preparing
policy documents: “IT Policy Development Process,” “Writing Tips and Tools and
II 24-06.05.01,” Preparing and Approving Information Technology-Related
Policy.”


2009 FISMA Executive Summary Report                                March 26, 2010
Report No. 472
                                      Page 19
The Draft SECR 31-1 policy was initially submitted to the IRM branch in March
2007, per OIT policy review process, and changed hands in IRM in September
2007 due to at that time, the OIT Policy Manager leaving the SEC. This resulted
in several internal iterations of the draft SECR 31-1. Subsequently and pursuant
to OMB Memo 07-16, additional draft policies were submitted to IRM for review.
These included policies for breach notification (Privacy Incident Management);
Reduction of SSNs; and Rules of Conduct for Safeguarding PII.

On the dates listed below, OIT issued the following policy documents for external
reviews.


   −
   −

   −

           o

           o
           o
           o


   −



   −



   −

The OED provided comments to the SECR 24.08 Privacy Program on December
8, 2008, which resulted in restructuring the privacy tiered framework and
essentially redrafting the SECR. As a result of the redrafted SECR, policy
provisions for Use and Reduction of SSNs and Rules of Conduct were
incorporated into the draft SECR. The Privacy Office met with the OED and
discussed their comments and plans to revise policy at the agency. Based on
that meeting and written comments, another draft SECR with attachments was
provided to OED on March 31, 2009. The OED requested clarification, and in
some instances, additional information such as sources of definitions. The OED
then restructured the outline of the document and edited/added content, and
2009 FISMA Executive Summary Report                                  March 26, 2010
Report No. 472
                                      Page 20
provide to OIT a rewrite of the SECR on November 17, 2009, including renaming
the SECR to Management and Protection of Privacy Act Records and other PII. 4
The draft OD, Privacy Incident Management is still under OED review.
Accordingly, these documents have not been formally approved, due to delays
within the Commission. Therefore, we cannot state with assurance that the SEC
is currently managing and operating its privacy program with the appropriate
controls. Although the Privacy Office has made some progress with acquiring
resources, performing outreach efforts within the Commission and Regional
offices, as well as benchmarking with external agencies, the absence of
formalized policies limit the Commission’s ability to implement an effective
privacy program.

In reviewing the Draft policies for Privacy Incident Management and the Privacy
Program, 5 we found it thoroughly documents the roles, responsibilities, and
procedures. 6 The Draft policies we reviewed were still under revision.
Therefore, we cannot comment on whether the newly-drafted policy contains the
same information as the Draft policies we reviewed for the 2009 FISMA
reporting.

The Commission continues to make progress in their outreach to SEC Divisions,
Offices and Regional Offices to increase compliance with privacy documentation
– Privacy Analysis Worksheets, PIA, and Privacy Act System of Records Notices
for programs and systems involving PII. Compliance efforts included updating
and disseminating the Privacy Impact Assessment Guide (January 2007) and
conducting training and seminars to apprise employees and contractors
regarding the requirements. Additionally, the Privacy Office conducted a review
of its existing inventory of System of Records Notice for the purpose of reducing
the use of SSNs within the Commission.

In question 6(a) of the reporting template, we found the SEC Privacy Program
and PIA processes will be implemented with the approval of the Draft SEC
Regulation (SECR) 24-08 Management and Protection of Privacy Act Records


4
  Since the submission of the responses to the FISMA questionnaires, a draft policy was
submitted on December 17, 2009 for external and internal OIT management review with a
January 18, 2010 comment due date.
5
  SECR 24-08 (01.0) SEC Regulation: Privacy Program and OD 24-08.07 (01.0) Operating
Directive: Privacy Incident Management).
6
  The guidance was based on The Privacy Act of 1974, Title 5 U.S. C. §552a; Federal Information
Security Management Act (FISMA) of 2002, E-Government Act of 2002 Public Law 107-347, Title
III; OMB Memorandum 05-08 (M-05-08), Designation of Senior Agency Officials for Privacy; OMB
Circular A-130, Appendix I, Federal Agency Responsibilities for Maintaining Records About
Individuals; Regulations Pertaining to the Privacy of Individuals and Systems of Records
Maintained by the Commission, Title 17 C.F.R § 200.301 – 200.313, and OMB Memorandum M-
07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information.
2009 FISMA Executive Summary Report                                               March 26, 2010
Report No. 472
                                           Page 21
and Other PII. The Commission has identified appropriate responsible
personnel, including a SAOP/CIO and Chief Privacy Officer (CPO).

In question 6(b), we found the SEC is currently developing a privacy program
with appropriate controls. Though draft policy has been developed, it has not
been implemented.

Regarding question 6(c), we found OIT developed a Privacy Impact Assessment
Guide (January 2007) and intends to formally document its PIA process with the
approval of the SECR 24-08, Management and Protection of Privacy Act
Records and other PII, which consists of governing policy.

In question 6(d), we found that the SEC is drafting policies that are consistent
with guidance provided by the applicable federal laws and regulations. 7
However, these policies (SECR 24-08 Management and Protection of Privacy
Act Records and other PII and OD 24-08.07 Operating Directive: Privacy Incident
Management) are still in DRAFT and have not been approved and implemented
throughout the Commission. We must note that OIT developed a Privacy Impact
Assessment Guide (January 2007) and intends to formally document its PIA
process once the SECR is approved.

We provided our response to question 6 as shown in Table 6.

Table 6: OIG Response to Question 6
                                                                           Recommended
    ID     Question from OMB Questionnaire
                                                                           Response
           Provide a qualitative assessment of the agency’s process,
           as discussed in Section D, for protecting privacy-related
    6      information, including adherence to existing policy, guidance   See text below
           and standards. Provide explanatory information in the area
           provided.
           Has the Agency developed and documented adequate
           policies that comply with OMB guidance in M-07-16, M-06-
    6(a)                                                                          No
           15, and M-06-16 for safeguarding privacy-related
           information?
           Is the Agency currently managing and operating a privacy
    6(b)   program with appropriate controls in compliance with its               No
           policies?



7
 For example The Privacy Act of 1974, Title 5 U.S. C. §552a; Federal Information Security
Management Act (FISMA) of 2002, E-Government Act of 2002 Public Law 107-347, Title III; OMB
Memorandum 05-08 (M-05-08), Designation of Senior Agency Officials for Privacy; OMB Circular
A-130, Appendix I, Federal Agency Responsibilities for Maintaining Records About Individuals;
Regulations Pertaining to the Privacy of Individuals and Systems of Records Maintained by the
Commission, Title 17 C.F.R § 200.301 – 200.313).
2009 FISMA Executive Summary Report                                            March 26, 2010
Report No. 472
                                           Page 22
                                                                   Recommended
 ID       Question from OMB Questionnaire
                                                                   Response
          Has the Agency developed and documented an adequate
 6(c)                                                                    No
          policy for Privacy Impact Assessments?
          Has the Agency fully implemented the policy and is the
 6(d)     Agency currently managing and operating a process for          No
          performing adequate privacy impact assessments?
Source: OMB FISMA Web Portal


Question 7: Configuration Management

      •   Is there an agency-wide security configuration policy? Yes/No.
      •   What tools, techniques is your agency using for monitoring compliance?
      •   Indicate the status of the implementation of Federal Desktop Core
          Configuration (FDCC) at your agency:

            o Agency has documented deviations from FDCC standard
              configuration. Yes/No.

            o New Federal Acquisition Regulation 2007-004 language, which
              modified “Part 39—Acquisition of Information Technology”, is
              included in all contracts related to common security settings.
              Yes/No.

Response. C5i noted that the Commission has developed and disseminated
formal, documented, configuration management policies and implementing
guidance that addresses project configuration management. The policy is set
forth in II 24-03.01.02(01.0) Implementing Instruction Process and Product
Assurance Management Configuration Management, dated December 21, 2005
and II 24-04.04.02 (01.1), Implementing Instruction for IT Security Configuration
Management.

These Implementing Instructions establish uniform policies, authorities,
responsibilities, and procedures for IT security configuration management as
directed in Operating Directive (OD) 24-04.04, IT Security Operations and
Communications Security Management Program. All policies, authorities,
responsibilities, and procedures listed are guided by requirements listed in SEC
Regulation (SECR) 24-04, Information Technology Security Program.

This instruction identifies configuration management planning as a process
managed by OIT’s CM/QA branch and other OIT organizations engaged in
project IT activities and provides a Project CM Plan template that describes
configuration management activities in terms of configuration identification,


2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                       Page 23
baseline management, configuration control, status accounting, audits, and
configuration management tools.

While not specifically addressed in the configuration management questions, we
found some areas of concern in the SEC Encryption Program and policies which
are further detailed in a separate SEC Encryption Program report.

In question 7(a), the                                                         is
used to monitor real-time compliance with an established configuration baseline.
The                 , in conjunction with administrative procedures already in place
through formal SEC change management policies and procedures, effectively
manages configuration compliance.

Any changes related to IT security follow the formal change management
procedures established by the CM/QA branch, documented in OP 24-
03.01.02.07 Configuration Control: Change Management and other related
policies.

The SEC has implemented appropriate policies 24-1.2 Introduction of New
Technology Into the Agency, 24-1.6 Enterprise Architecture, OD 24-03.01
Process and Product Assurance Management, OD 24-03.01.01 Process and
Product Assurance Management: Quality Management to perform oversight and
evaluation of contractor information systems. The Quality Management (QM)
policy “identifies the use of QM for the systematic implementation and use of
planning, control, assurance, and improvement activities to align the business
goals, quality objectives, and process measures. Effective QM designs,
develops, and implements guidance processes that assure accuracy and
integrity. QM may involve providing information on standards, facilitating a team,
or identifying and analyzing a process. Another expectation of QM is to collect
measurement data and lessons learned as input to other process and product
assurance management activities. QM resources act as consultants in
continuous process improvement activities.” QM has specific objectives, i.e.,
quality planning, quality control, quality assurance, and quality improvement, and
helping to ensure successful implementation. OIT’s CM/QA branch is
responsible for conducting the review, control, and enforcement of the process
and product assurance for IT products within OIT and the SEC, as well as
ensuring that quality planning and quality control are addressed.
Some of the key components of the change management process are
highlighted below, focusing on specific considerations related to IT security. A
change request is prepared and initiated by a requester using the enterprise
change control tool. The enterprise change control tool is administered by OIT’s
CM/QA branch within the Office of Enterprise Architecture. The information that
a requester inputs into the change control tool generates a System Change
Request. The OIT Security Group’s Operational Change Control Board (O-CCB)

2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 24
members review system change requests to evaluate and assess whether there
are IT security implications. Information system components (hardware,
operating system, utility, and applications) with IT security features require
testing prior to the implementation of the change into the production environment,
preventing unwarranted downtime of the production environment. 8

When a change to an existing information system is proposed, the OIT Security
Group O-CCB member conducts an impact analysis to determine the effects, if
any, on the integrity and availability of the information and information system.
This analysis ensures changes do not introduce new vulnerabilities or diminish
existing IT security controls. In addition to the impact analysis, IT security testing
and evaluation are conducted for proposed changes that have IT security
implications and features. Once testing is completed and IT security implications
are evaluated and assessed, O-CCB either approves or disapproves the
proposed changes. The results of the analysis and any IT security testing and
evaluation are documented within the enterprise change control tool.

Question 7(b). The FDCC is an OMB mandate that requires all Federal
agencies to standardize the configuration of approximately 300 settings on
Windows computers, agency-wide. The reason for this standardization is to
strengthen Federal IT security by reducing the opportunity for hackers to access
and exploit government computer systems. On September 18, 2009, the SEC
OIT/End User Technology branch pushed the FDCC settings to all workstations
and laptops by Active Directory Group Policy Object (GPO).

Question 7(c). The SEC had no documented deviations from FDCC standard
configuration. The FDCC standard configuration was fully implemented in
accordance with SEC OIT Memorandum, September 29, 2009.

Question 7(d). Federal Acquisition Regulation 2007-004 language, which
modified Part 39—Acquisition of Information Technology, is included in all
contracts related to common security settings. These requirements were
promulgated in an SEC OIT Memorandum dated September 29, 2009.

Our response to question 7 is shown as follows in Table 7.




8
    See OD 24-03.01-C01Operations Configuration Control Board (O-CCB) Charter.

2009 FISMA Executive Summary Report                                              March 26, 2010
Report No. 472
                                          Page 25
Table 7: OIG Response to Question 7
                                                                     Recommended
 ID      Question from OMB Questionnaire
                                                                     Response
                                                                     Yes – See text
 7       Is there an agency-wide security configuration policy?
                                                                         below
       What tools, techniques is your agency using for monitoring
 7(a)                                                                See text below
       compliance?
       For each OS/platform/system for which your agency has a
 7(a)1 configuration policy, please indicate the status of           See table below
       implementation for that policy.
       Indicate the status of the implementation of FDCC at your
 7(b)                                                                     Yes
       agency:
       Agency has documented deviations from FDCC standard
 7(c)                                                                     Yes
       configuration.
       New Federal Acquisition Regulation 2007-004 language,
       which modified “Part 39—Acquisition of Information
 7(d)                                                                     Yes
       Technology”, is included in all contracts related to common
       security settings.
Source: OMB FISMA Web Portal

Question 7. The                   is used to monitor real-time compliance with an
established configuration baseline. This tool, in conjunction with administrative
procedures already in place, i.e., Implementation Instructions for Configuration
Management within the formal SEC change management policies and
procedures, effectively enforces configuration compliance. All system changes
follow the formal change management procedures established by OIT’s CM/QA
branch and are documented in the configuration control operations plan and
other related policies.

Although encryption is not a specific FISMA question, our FISMA review included
an assessment of the SEC’s encryption policies and procedures. During our
evaluation, we discovered some areas of concern with encryption
implementation. We performed a full evaluation of the SEC’s Encryption
Program and provided recommendation for improvement in a separate report.

Question 7(a). Changes related to IT security follow the formal change
management procedures established by the CM/QA branch, documented in OP
24-03.01.02.07 Configuration Control: Change Management and related
policies. Some of the key components of the change management process are
highlighted below, focusing on specific considerations related to IT security. A
change request is prepared and initiated by a requester using the enterprise
change control tool. The enterprise change control tool is administered by OIT’s
CM/QA branch within the Office of Enterprise Architecture. Information the
requester puts into the change control tool generates a system change request.
Members of OIT’s Security Group, O-CCB, review system change requests to
evaluate and assess IT security implications. Information system components
2009 FISMA Executive Summary Report                                     March 26, 2010
Report No. 472
                                        Page 26
(i.e., hardware, operating system, utility, and applications) with IT security
features require testing prior to implementing the change into the production
environment. This prevents unwarranted production downtime.

When a change to an existing information system is proposed, O-CCB members
conduct an impact analysis to determine the effects, if any, on the integrity and
availability of the information and information system. This analysis ensures
changes do not introduce new vulnerabilities or diminish existing IT security
controls. In addition to the impact analysis, IT security testing and evaluation is
conducted for all proposed changes that have IT security implications and
features. Upon completion of testing and when all IT security implications are
evaluated and assessed, the O-CCB approves or disapproves the proposed
changes. The results of the analysis and any IT security testing and evaluation
are documented in the change control tool. Configuration Policy for
OS/Platform/System is illustrated below in Table 8.

Table 8: Configuration Policy for Each OS/Platform/System
 OS/Platform/System     Tool/Technique Tool Category Implementation
                        Name                             Status
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                                 In Process
                                                Configuration    Fully Implemented
                                                Scanner
                                                Configuration    Fully Implemented
                                                Scanner
                                                Configuration    Fully Implemented
                                                Scanner
                                                                 Fully Implemented
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                Vulnerability    Fully Implemented
                                                Scanners
                                                Vulnerability    Fully Implemented
                                                Scanners
 Microsoft Office                                                In Process
 SharePoint Server 2007
 Microsoft Office 2007                                           In Process
 Microsoft Outlook 2007                                          In Process


2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 27
 OS/Platform/System            Tool/Technique Tool Category      Implementation
                               Name                              Status
                                                 Vulnerability   Fully Implemented
                                                 Scanners
                                                 Vulnerability   Fully Implemented
                                                 Scanners
                                                 Vulnerability   Fully Implemented
                                                 Scanners
                                                 Vulnerability   Fully Implemented
                                                 Scanners
                                                 Vulnerability   Fully Implemented
                                                 Scanners
                                                 Vulnerability   Fully Implemented
                                                 Scanners
 Microsoft Word 2007                                             In Process
 Mysql5                                                          Fully Implemented
                                                 Vulnerability   Fully Implemented
                                                 Scanners

                                                 Vulnerability   Fully Implemented
                                                 Scanner
                                                                 Fully Implemented

                                                 Vulnerability   Fully Implemented
                                                 Scanner
                                                 Vulnerability   Fully Implemented
                                                 Scanner

                                                 Vulnerability   Fully Implemented
                                                 Scanner
                                                 Vulnerability   Fully Implemented
                                                 Scanner
Source: OMB FISMA Web Portal


Question 8: Incident Reporting

    •    How often does the agency comply (with) documented policies and
         procedures for identifying and reporting incidents internally? Answer will
         be a percentage range.

    •    How often does the agency comply with documented policies and
         procedures for timely reporting of incidents to US CERT? Answer will be
         a percentage range.

    •    How often does the agency comply documented policy and procedures
         for reporting to law enforcements? Answer will be a percentage range.
2009 FISMA Executive Summary Report                                     March 26, 2010
Report No. 472
                                       Page 28
Response. C5i found that the Commission does follow its documented policies
and procedures for reporting incidents internally, to the United States Computer
Emergency Response Team (US-CERT), and to law enforcement. The SEC has
a very robust Incident Response program using guidance and best practices
from NIST, OMB, and FISMA.

The SEC has implemented the following policies to address Incident Response
processes (details on these processes are provided below): OD 24-04.07
Information Security Incident Management, II 24-04.07.01 Computer Security
Incident Response Capability, OP 24-04.07.01.02 Handling Inappropriate Usage
Incidents, OP 24-04.07.01.03 Handling of Denial of Service Incidents, OP24-
04.07.01.04 Handling Unauthorized Access Incidents, OP 24-04.07.01.05
Handling Laptop Theft and Tampering Incidents, OP 24-04.07.01.05.A01 Laptop
Theft and Tampering Incident Materials, SEC Incident Response Capability
Handbook, and II 24-04.07.01.A01 SEC Incident Response Capability Handbook.

Incident Response Capability Handbook

The Incident Response Capability (IRC) handbook was developed by the SEC to
assist in the mission of the SEC Computer Security Incident Response Team
(CSIRT). The handbook clearly and fully defines processes and procedures,
roles and responsibilities, types of incidents, reporting criteria and timeframes,
evidence collection and handling, event categories and incident severity, etc., as
well as post-mortem procedures, i.e., lessons learned.

The following excerpt was taken from the IRC handbook:

       “The CSIRT consists of both a permanent cadre and temporary task
       organized teams. Whereas the permanent cadre is responsible for
       ensuring the mission readiness of the CSIRT and controlling the
       operational teams, it is the operational teams that actually perform the
       hands-on response to security incidents. This organizational construct is
       depicted in Chart 1 shown below.




2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                      Page 29
               Chart 1: CSIRT Organization




               Source: Incident Response Capability Handbook

       The CSIRT’s permanent cadre consists of a manager, senior staff, and
       supporting staff. Senior staff members of the permanent cadre are
       selected because they have specific expertise needed in the CSIRT; that
       is, they have management authority over SEC Federal resources and/or
       contractor employees that are likely to become members of CSIRT
       operational teams. Supporting staff are chosen based on their ability to
       assist with activities in the CSIRT that continue regardless of whether any
       incident response operations are underway. CSIRT members are
       responsible for accomplishing much of the administrative, logistical, and
       training needs of the CSIRT.

       CSIRT operational teams are transient. They are chartered by the CSIRT
       permanent cadre, charged with restoring a safe computing environment
       when an incident occurs, and task organized to meet the challenges of
       that individual mission. The CSIRT permanent cadre disbands each
       operational team once it has accomplished its mission. II 24-04.07.01
       documents command and control of the operational teams by the CSIRT
       permanent cadre. This handbook documents procedures used for hands-
       on response by the CSIRT operational teams.”

The handbook also defines which types of incidents are required to be reported
to the US-CERT (based on OMB A-130 and FISMA) and which do not. The
types of incidents that are not required to be reported are incidents that are self-
2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                           Page 30
inflicted, did not result in unauthorized access, or were not a result of an
attacker’s actions. All other incidents require reporting to US-CERT.

Examples of the CSIRT procedures for incident handling from the IRC handbook
are illustrated in Tables 9 and 10 below and in Figure 2, located in this report’s
Appendices.

       Table 9: Laptop Theft Response Procedures
       Detection and Analysis Stage             Team Member                           Status
        1.   Interview the person the laptop is              CSIRT Manager or
             assigned to using CSIRT-FRM-IH003 to            Op Team Lead
             collect the required information. Within
             one hour file a report with US CERT if
             there is any possibility that PII has been
             compromised, per OMB Memorandum
             M-06-19, “Reporting Incidents Involving
             Personally Identifiable Information.”
        2.   Alert CISO, OOD, and Chief Privacy              CSIRT Manager or
             Officer that USCERT report has been             Op Team Lead
             filed.
        3.   Determine whether there exists                  CSIRT Manager or
             substantial risk to any Government              Op Team Lead
             network or mission as a result of the
             theft.
        4.   Determine whether any PII has been              CSIRT Manager or
             compromised.                                    Op Team Lead
        Containment, Eradication, and
        Recovery Stage
        5.   If it is determined that there is substantial   CSIRT Manager or
             risk to any Government network as a             Op Team Lead
             result of the theft take appropriate
             precautions to mitigate the risk, such as
             revoking the credentials of any user
             whose credentials were available on, in,
             or nearby the stolen laptop.
        6.   If it is determined that any PII may have       CSIRT Manager or
             been compromised, notify the Privacy            Op Team Lead
             Officer.
        Post-Incident Activity Stage
        7.   Create a follow-up report.                      Op Team Lead
        8.   Hold a lessons learned meeting.                 CSIRT Manager
       Source: Incident Response Capability Handbook




2009 FISMA Executive Summary Report                                             March 26, 2010
Report No. 472
                                           Page 31
       Table 10: Unauthorized Access Response Procedure
              Detection and Analysis Stage     Team Member                        Status

        1. Prioritize handling the incident based on     CSIRT Manager
           its business impact:
           • Identify which resources have been       Op Team Lead
                affected and forecast which resources Op Team SSB Rep
                will be affected.                     Op Team Network
                                                      Rep
           • Estimate the current technical effect of Op Team Lead
               the incident.                          Op Team SSB Rep
                                                      Op Team Network
                                                      Rep
           • Find the appropriate cell(s) in the      Op Team Lead
               prioritization matrix, based on the    Op Team SSB Rep
               technical effect and affected          Op Team Network
               resources.                             Rep
           • If the incident is ongoing, determine    Op Team Lead
               what additional logging may be         Op Team SSB Rep
               required to capture evidence of        Op Team Network
               wrongdoing. Affect the logging         Rep
               changes.
        2. Report the incident to the appropriate     Op Team Lead
           internal personnel and external
           organizations.
        Containment, Eradication, and
        Recovery Stage
        3. Perform an initial containment of the         Op Team Lead
           incident.                                     Op Team SSB Rep
                                                         Op Team Network
                                                         Rep
        4. Acquire, preserve, secure, and document       Forensics Specialist
           evidence.
        5. Confirm the containment of the incident:      Op Team Lead
           • Further analyze the incident and            Op Team Lead
               determine if containment was              Op Team SSB Rep
               sufficient (including checking other      Op Team Network
               systems for signs of intrusion).          Rep
           • Implement additional containment            Op Team Lead
               measures if necessary.                    Op Team SSB Rep
                                                         Op Team Network
                                                         Rep
        6. Eradicate the Vulnerability:
           • Identify and mitigate all vulnerabilities   Op Team SSB Rep
              that were exploited.                       Op Team Network
                                                         Rep


2009 FISMA Executive Summary Report                                         March 26, 2010
Report No. 472
                                        Page 32
        7. Recover from the incident:
           • Return affected systems to an                 Op Team SSB Rep
              operationally ready state.                   Op Team Network
                                                           Rep
            •   Confirm that the affected systems are      Op Team SSB Rep
                functioning normally.                      Op Team Network
                                                           Rep
            •   If necessary, implement additional         Op Team SSB Rep
                monitoring to look for future related      Op Team Network
                activity.                                  Rep
        Post-Incident Activity Stage
        8. Create a follow-up report.                      Op Team Lead
        9. Hold a lessons learned meeting.                 CSIRT Manager
       Source: IRC Handbook

We found that the Commission has robust incident prevention, detection,
response, and reporting capabilities. This capability features a number of tools,
such as:

                                                        . The SEC has
       implemented the                                                . The
                                                    is an in-line device that is
       inserted seamlessly and transparently into the network. As packets
       pass through the Intrusion Protection System, they are fully
       inspected to determine whether they are legitimate or malicious.
       This instantaneous form of protection is the most effective means of
       preventing attacks from ever reaching their targets.
                                       provide Application Protection,
       Performance Protection and Infrastructure Protection at gigabit
       speeds through total packet inspection. Application Protection
       capabilities provide fast, accurate, reliable protection from internal
       and external cyber attacks. Through its Infrastructure Protection
       capabilities, the                                             protects
       VoIP infrastructure, routers, switches, DNS and other critical
       infrastructure from targeted attacks and traffic anomalies.
                                                 capabilities enable
       customers to throttle non-mission critical applications that hijack
       valuable bandwidth and IT resources, thereby aligning network
       resources and business-critical application performance.

                                                               delivers real-time
       event management with                         As a key component of the
                                                    delivers “forensics on the
       fly,” the ability to drill down from an alert to the source events that
       triggered the alert. The advanced real-time correlation capability of
2009 FISMA Executive Summary Report                                          March 26, 2010
Report No. 472
                                         Page 33
                         identifies the relevance of any given event by placing
       it within context of who, what, where, when and why that event
       occurred and its impact on business risk.                      correlates
       incoming events with asset prioritization and vulnerability, user
       activity, and threat history to deliver accurate and automated
       prioritization of security risks and compliance violations. The
       powerful correlation engine of                     processes many
       millions of log entries down to the few critical events that matter.
       These incidents are then presented through real-time dashboards,
       notifications, or reports to the security administrator. Once risks are
       identified,                   provides a built-in workflow engine that
       guides risk containment activities including case management and
       handing off the threat information to
                   for threat isolation and remediation options. The
       implementation at the SEC is currently being upgraded to the most
       recent software version.

                           The                      product offers a rich list
       of features. The application effectively scans desktops in real-time,
       and at preprogrammed scheduled times. The program also scans
       for spyware and adware.            has an Antivirus Emergency
       Response Team that continually monitors the worldwide virus
       activities. The always-on protection guards against viruses,
       spyware and other Internet threats that may enter Commission
       systems via e-mail, instant message attachments, Internet
       downloads, and web browsing.

       Project Einstein II. The US-CERT Einstein Program is an initiative
       that builds cyber-related situational awareness across the Federal
       government. The program monitors government agencies’
       networks to facilitate the identification and response to cyber
       threats and attacks, improve network security, increase the
       resiliency of critical electronically delivered government services,
       and enhance the survivability of the Internet. Einstein leverages
       information technology so that the US-CERT can automate the
       sharing of critical information across the entire Federal government.
       Enhanced data sharing between Federal government agencies and
       the US-CERT provides an advanced cyber view and analysis of the
       Federal government’s critical cyber networks.

                                        is the premier computer forensic
       application available. It gives investigators the ability to image a
       drive and preserve it in a forensic manner using the
       evidence file format                  a digital evidence container

2009 FISMA Executive Summary Report                                       March 26, 2010
Report No. 472
                                       Page 34
       validated and approved by courts worldwide.
       also contains a full suite of analysis, bookmarking and reporting
       features.                       and third-party vendors provide
       support for expanded capabilities to ensure that forensic examiners
       have the most comprehensive set of utilities.

                                                 centralizes and streamlines
       the complete case management lifecycle for cyber and physical
       incidents and ethics violations.            web-based solution allows
       the SEC to capture organizational events that may escalate into
       incidents, evaluate incident criticality, and assign response team
       members based on business impact and regulatory requirements.
       You can also consolidate response procedures, manage
       investigations end-to-end, and report on trends, losses, recovery
       efforts and related incidents. Powered by the
                    , the Incident Management software solution allows you
       to effectively handle incidents that occur anywhere you do business
       from detection through analysis and resolution. The SEC’s
       implementation is currently being upgraded to the latest software
       version.

                                                . The SEC uses
                  test receivers and                    for wireless scanning.
                                   is a wireless test receiver system that
       demodulates, sweeps, analyzes, and optimizes all popular 802.11
       Wi-Fi network standards including 802.11b/g (2.4 GHz), 802.11n,
       and even 802.11a (5 GHz).               is an 802.11 layer2 wireless
       network detector, sniffer, and intrusion detection system.
       will work with any wireless card which supports raw monitoring
       (rfmon) mode, and can sniff 802.11b, 802.11a, and 802.11g traffic.
              t identifies networks by passively collecting packets and
       detecting standard named networks, detecting (and given time, de-
       cloaking) hidden networks, and inferring the presence of non-
       beaconing networks via data traffic.

We found local processes and procedure based on NIST SP 800-61, Computer
Security Incident Handling Guide as well as the following publications:

   •   NIST SP 800-72, Guidelines on PDA Forensics
   •   NIST SP 800-83, Guide to Malware Incident Prevention and Handling
   •   NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident
       Response
   •   NIST SP 800-101, Guidelines on Cell Phone Forensics


2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                      Page 35
     •   CMU/SEI-2003-HB-001, Organizational Models For Computer Security
         Incident Response Teams (CSIRTs)
     •   CMU/SEI-20030TR-001, State of the Practice of Computer Security
         Incident Response Teams (CSIRTs)
     •   CMU/SEI-20030HB-002, Handbook for Computer Security Incident
         Response Teams (CSIRTs)
     •   CMU/SEI-2004-TR-015, Defining Incident Management Processes for
         CSIRTs
     •   CMU/SEI-20050HB-001, First Responders Guide to Computer Forensics
     •   SAND98-8667, A Common Language for Computer Security Incidents,
         Howard and Longstaff, Sandia National Laboratories

The incident reporting procedures are widely used and fully integrated into the
SEC’s IT management processes. We assess that the incident response
procedures are complied with between 90 and 100 percent of the time.

In question 8(a), we found that the SEC has a robust collaborative relationship
with the US-CERT. The SEC complies with documented policies and procedures
for timely reporting of incidents to US- CERT between 90 and 100 percent of the
time.

In question 8(b), we found that the SEC does comply with the documented
policies and procedures for reporting to law enforcement at least 90 percent of
the time.

Based on our review and analysis, we answered OMB question 8 as shown in
Table 11.

Table 11: OIG Response to Question 8
                                                                  Recommended
 ID      Question from OMB Questionnaire
                                                                  Response
      How often does the agency comply (with) documented
 8    policies and procedures for identifying and reporting        90% to 100%
      incidents internally?
      How often does the agency comply with documented
 8(a) policies and procedures for timely reporting of incidents    90% to 100%
      to US CERT?
      How often does the agency comply documented policy
 8(b)
      and procedures for reporting to law enforcement?             90% to 100%
Source: OMB FISMA Web Portal




2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                      Page 36
Question 9: Security Awareness Training

    •    Has the agency ensured IT security awareness training of all users with
         log in privileges, including contractors and those employees with
         significant IT security responsibilities? Provide explanatory detail in the
         space provided.

    •    Has the Agency developed and documented an adequate policy for
         identifying all general users, contractors, and system owners/employees
         who have log in privileges, and providing them with suitable IT security
         awareness training? Yes/No/NA.

    •    Report the following for your agency:

          o Total number of people with log in privileges to agency systems.

          o Number of people with log in privileges to agency systems that
            received information security awareness training during the past
            fiscal year, as described in NIST Special Publication 800-50,
            “Building an Information Technology Security Awareness and
            Training Program” (October 2003).

          o (The) total number of employees with significant information security
            responsibilities.
          o Number of employees with significant security responsibilities that
            received specialized training, as described in NIST Special
            Publication 800-16, “Information Technology Security Training
            Requirements: A Role-and Performance-Based Model,” (April 1998).

Response. OIT Security entered into a second OMB Security line-of-business
initiative in 2007 with the Department of State to purchase the Cyber Security
Awareness Course known as JSAS. JSAS is an automated computer-based-
training that provides standard cyber security training across the Federal
Government, and allows for instant reporting and password resets. Users are
required to read and review the content, as well as pass a test to complete the
training. In addition to the standard cyber security training offered by the
Department of State SEC paid for an additional module to support compliance
with the SEC Rules of the Road. In 2009, the Rules of the Road went through a
major update through the SEC policy review process.

The SEC takes Cyber Security Awareness training very seriously. Individuals
who do not successfully complete the training by October 31, 2009 risk having
their access credentials frozen until they successfully complete the training.

2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                      Page 37
The screenshot below demonstrates the reporting and tracking capability of the
JSAS tool showing that as of November 3, 2009 3,788 of 4,400 users (86
percent) have successfully completed the Cyber Security Awareness Course. As
of November 14, 2009, the final numbers reported to OMB are 4,101 of 4,383
users (94 percent completed the Security Awareness Training.

The SEC Cyber Security Awareness Training Certificate Summary is illustrated in
Figure 3, located in this report’s Appendices. Based on our review, we answered
question 9 as shown in Table 12 below.

Table 12: OIG Response to Question 9
                                                                  Recommended
 ID      Question from OMB Questionnaire
                                                                  Response
       Has the agency ensured IT security awareness
       training of all users with log in privileges, including
 9     contractors and those employees with significant IT              Yes
       security responsibilities? Provide explanatory detail in
       the space provided.
       Has the Agency developed and documented an
       adequate policy for identifying all general users,
 9(a) contractors, and system owners/employees who have                 Yes
       log in privileges, and providing them with suitable IT
       security awareness training?
 9(b) Report the following for your agency:
       Total number of people with log in privileges to
 9(b)1                                                                 4383
       agency systems
       Number of people with log in privileges to agency
       systems that received information security awareness
       training during the past fiscal year, as described in
 9(b)2                                                                 4104
       NIST Special Publication 800-50, "Building an
       Information Technology Security Awareness and
       Training Program" (October 2003).
       Total number of employees with significant
 9(b)3                                                                  453
       information security responsibilities.
Source: OMB FISMA Web Portal


Question 10: Peer-To-Peer File Sharing
Does the agency explain policies regarding the use peer-to-peer file sharing in IT
security awareness training, ethics training, or any other agency-wide training?

Response. The Commission has monitoring systems and policies (SECR 24-04
Information Technology Security Program and SECR 24-04.04.02 IT Security
Configuration Management) covering the use of collaborative web technologies
2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                      Page 38
and peer-to-peer file sharing in IT security awareness, ethics, or other agency-
wide training courses. For example, the SEC Rules of the Road (SECR 24-04-
A01) user behavior policy prohibits the access or use of peer-to-peer
software/systems within the SEC network. Additionally, the prohibited use of
peer-to-peer software is addressed as a module in the Commission’s annual
cyber security training course.




2009 FISMA Executive Summary Report                                   March 26, 2010
Report No. 472
                                      Page 39
                                                                        Appendix I


                                      Acronyms
   APS                            Automated Procurement System
   C&A                            Certification and Accreditation
   CIO                            Chief Information Officer
   CISO                           Chief Information Security Officer
   CM/QA                          Configuration Management/Quality Assurance
   CPO                            Chief Privacy Officer
   CSAM                           Cyber Security Assessment and Management
   CSIRT                          Computer Security Incident Response Team
   DHS                            Department of Homeland Security
   FDCC                           Federal Desktop Core Configuration
   FIPS                           Federal Information Processing Standards
   FISMA                          Federal Information Systems Management Act
   GAO                            Government Accountability Office
   GPO                            Group Policy Objective
   GSS                            General Support System
   HIDS                           Host-Based Intrusion Detection Systems
   IDS                            Intrusion Detection System
   IRC                            Incident Response Capability
   JSAS                           Cyber-Security Awareness Course
   NIST                           National Institute of Standards and Technology
   O-CCB                          Operational Change Control Board
   OED                            Office of the Executive Director
   OIG                            Office of the Inspector General
   OIT                            Office of Information Technology
   OMB                            Office of Management and Budget


2009 FISMA Executive Summary Report                                     March 26, 2010
Report No. 472
                                        Page 40
                                                                       Appendix I


   PIA                            Privacy Impact Assessment
   PII                            Personally Identifying Information
   PIRT                           Privacy Incident Response Team
   POA&M                          Plan of Action and Milestone
   QM                             Quality Management
   SAOP                           Senior Agency Official for Privacy
   SEC                            The U.S. Securities and Exchange Commission
   SSN                            Social Security Number
   ST&E                           Security Test and Evaluation
   US-CERT                        United States Computer Emergency Readiness
                                  Team




2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                        Page 41
                                                                       Appendix II


                        Scope and Methodology

This review was not conducted in accordance with government auditing
standards.

Scope. The scope of this effort included all systems owned or operated by the
Commission or its contractors on behalf of the Commission.

Methodology. To meet the evaluation objective to assess the FISMA and report
on how the Commission implemented its mandated information security
requirements, C5i completed the OIG portion of the 2009 FISMA reporting
template and based its responses on interviews with key personnel, independent
observations, and the examination of supporting documentation.

Interviews with key personnel included systems owners, business-line managers,
OIT representatives, and OIG personnel. Personnel were interviewed regarding
the issues germane to completing the OIG portion of the 2009 FISMA reporting
template. Areas discussed included:

   •   Processes and procedures for maintaining and inventory of information
       systems and tangible equipment (including portable devices).
   •   Certification and accreditation processes and procedures.
   •   Implementation and testing of security controls.
   •   Contingency planning and testing.
   •   Commission oversight of contractor systems.
   •   POA&M processes and procedures.
   •   Privacy program and privacy impact assessments.
   •   Configuration management.
   •   Incident reporting.
   •   Security awareness training.
   •   Collaborative web technologies and peer to peer file sharing.
   •   E-authentication risk assessments.

C5i also reviewed an extensive collection of system artifacts, policies, and other
documentation relating to the systems and issues that were identified.

Management Controls. We reviewed the existing controls that were considered
significant for FISMA and within the context of the evaluation objectives.




2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 42
                                                                    Appendix III

Prior Audit Coverage. We conducted an assessment of the Commission’s
FISMA program in 2008. The review looked at the FISMA major security areas
as well as performed an assessment of two of the Agencies information systems;
the Complaints/Tips/Referrals, and the Office of Compliance Inspections and
Examinations Adviser Surveillance Intelligence System applications. The report
contained three recommendations and revealed that while there were no
significant issues with the systems, there were some problems with the overall
security program. Not all the report recommendations have been closed.
Specifically we recommended that:

   •   OIT complete the security controls and contingency plan testing for
       the remaining systems.
   •   OIT address the requirements for FDCC to include:
          o Adopting and implementing the FDCC standard
              configurations and documenting any deviations.
          o Modifying all contracts related to common security settings
              to include the New Federal Acquisition Regulation 2007-004
              language.
          o Implementing the FDCC security settings for all Windows XP
              and VISTA computing systems.




2009 FISMA Executive Summary Report                                  March 26, 2010
Report No. 472
                                      Page 43
                                                                        Appendix III


                                      Criteria

OMB Memorandum M-09-29, Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management. This
memorandum provides instructions for meeting agency FY 2009 reporting
requirements under the Federal Information Security Management Act of 2002
(FISMA) (Title III, Pub. L. No. 107-347). It also includes reporting instructions for
agency privacy management programs.

OMB Memorandum M-07-16, Safeguarding Against and Responding to the
Breach of Personally Identifiable Information, May 22, 2007. This memorandum
requires agencies to develop and implement a breach5 notification policy. This is
a responsibility shared by officials accountable for administering operational and
privacy and security programs, legal counsel, Agencies’ Inspectors General and
other law enforcement, and public and legislative affairs. It is also a function of
applicable laws, such as the Federal Information Security Management Act of
2002 (FISMA) and the Privacy Act of 1974.

OMB Memorandum M-06-19, Reporting Incidents Involving Personally
Identifiable Information and Incorporating the Cost for Security in Agency
Information Technology Investments, July 12, 2006. This memorandum provides
updated guidance on the reporting of security incidents involving personally
identifiable information and to remind you of existing requirements, and explain
new requirements your agency will need to provide addressing security and
privacy in your fiscal year 2009 budget submissions for information technology.

OMB Memorandum M-06-16, Protection of Sensitive Agency Information (June
23, 2006). This memorandum recommends a number of actions necessary to
protect sensitive information.

OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information
(May 22, 2006). This memorandum reemphasizes agency responsibilities under
law and policy to appropriately safeguard sensitive personally identifiable
information and to train employees on their responsibilities.

OMB Memorandum M-03-22, Guidance for Implementing Privacy Provisions of
the E-Government Act of 2002, September 30, 2003. This memorandum
provides information to agencies on implementing the privacy provisions of the E-
Government Act of 2002, which was signed by the President on December 17,
2002 and became effective on April 17, 2003.

NIST SP 800-72, Guidelines on PDA Forensics. This guide provides an in-depth
look into PDAs and explaining the technologies involved and their relationship to

2009 FISMA Executive Summary Report                                      March 26, 2010
Report No. 472
                                       Page 44
                                                                      Appendix III

forensic procedures. It covers three families of devices – Pocket PC, Palm OS,
and Linux-based PDAs – and the characteristics of their associated operating
system.

NIST SP 800-83, Guide to Malware Incident Prevention and Handling. This
publication provides recommendations for improving an organizations malware
incident prevention measures. It also gives extensive recommendations for
enhancing an organizations existing incident response capability so that it is
better prepared to handle malware incidents, particularly widespread ones. The
recommendations address several major forms of malware, including viruses,
worms, Trojan horses, malicious mobile code, blended attacks, spyware tracking
cookies, and attacker tools such as backdoors and rootkits. The
recommendations encompass various transmission mechanisms, including
network services (e.g., e-mail, Web browsing, file sharing) and removable media.

NIST SP 800-86, Guide to Integrating Forensic Techniques into Incident
Response. This guide provides detailed information on establishing a forensic
capability, including the development of policies and procedures. Its focus is
primarily on using forensic techniques to assist with computer security incident
response, but much of the material is also applicable to other situations.

NIST SP 800-101, Guidelines on Cell Phone Forensics. The objective of the
guide is twofold: (1) To help organizations evolve appropriate policies and
procedures for dealing with cell phones; and (2) To prepare forensic specialists
to contend with new circumstances involving cell phones when they arise.

CMU/SEI-2003-HB-001, Organizational Models For Computer Security Incident
Response Teams (CSIRTs). This handbook describes different organizational
models for implementing incident handling capabilities, including each model’s
advantages and disadvantages and the kinds of incident management services
that best fit with it. An earlier SEI publication, the Handbook for Computer
Security Incident Response Teams (CSIRTs) (CMU/SEI-2003-HB-002), provided
the baselines for establishing incident response capabilities.

CMU/SEI-20030TR-001, State of the Practice of Computer Security Incident
Response Teams (CSIRTs). This report provides an objective study of the state
of the practice of incident response, based on information about how CSIRTs
around the world are operating. It covers CSIRT services, projects, processes,
structures, and literature, as well as training, legal, and operational issues.

CMU/SEI-2003-HB-002, Handbook for Computer Security Incident Response
Teams (CSIRTs). This report proposes an intrusion-aware design model called
trustworthy refinement through intrusion-aware design (TRIAD). TRIAD helps
information system decision makers formulate and maintain a coherent,

2009 FISMA Executive Summary Report                                    March 26, 2010
Report No. 472
                                      Page 45
                                                                       Appendix III

justifiable, and affordable survivability strategy that addresses mission-
compromising threats for their organization.

CMU/SEI-2004-TR-015, Defining Incident Management Processes for CSIRTs.
This report presents a prototype best practice model for performing incident
management processes and functions. It defines the model through five high-
level incident management processes: Prepare/Sustain/Improve, Protect
Infrastructure, Detect Events, Triage Events, and Respond. Workflow diagrams
and descriptions are provided for each of these processes.

CMU/SEI-2005-HB-001, First Responders Guide to Computer Forensics. This
handbook is for technical staff members charged with administering and securing
information systems and networks. It targets a critical training gap in the fields of
information security, computer forensics, and incident response: performing basic
forensic data collection.

SAND98-8667, A Common Language for Computer Security Incidents. This
paper presents the results of a project to develop a common language for
computer security incidents. This project results from cooperation between the
Security and Networking Research Group at the Sandia National Laboratories,
Livermore, CA, and the CERT® Coordination Center at Carnegie Mellon
University, Pittsburgh, PA.




2009 FISMA Executive Summary Report                                     March 26, 2010
Report No. 472
                                      Page 46
                                                Appendix IV


                             CSAM Screenshots

Figure 1: CSAM Screenshots




Source: CSAM Home Page




2009 FISMA Executive Summary Report              March 26, 2010
Report No. 472
                                      Page 47
                                                Appendix V


                     Inventory of GAO POA&Ms

Figure 2: Inventory of GAO POA&Ms




Source: CSAM Home Page




2009 FISMA Executive Summary Report             March 26, 2010
Report No. 472
                                      Page 48
                                                Appendix VI


                            POA&M Entry Page

Figure 3: POA&M Entry Page




Source: CSAM Home Page




2009 FISMA Executive Summary Report              March 26, 2010
Report No. 472
                                      Page 49
                                                Appendix VII


                                  POA&M Page

Figure 4: POA&M Page




Source: CSAM Home Page




2009 FISMA Executive Summary Report              March 26, 2010
Report No. 472
                                      Page 50
                                                Appendix VIII


                            SEC Custom Query

Figure 5: SEC Custom Query




Source: CSAM Home Page




2009 FISMA Executive Summary Report               March 26, 2010
Report No. 472
                                      Page 51
                                                 Appendix IX


                            System Inventories

Figure 6: System Inventories




Source: CSAM Home Page




2009 FISMA Executive Summary Report               March 26, 2010
Report No. 472
                                      Page 52
                                                   Appendix X


                  Incident Escalation Flow Chart
    Figure 7: Incident Escalation Flow Chart




    Source: OIT Security Group




2009 FISMA Executive Summary Report                March 26, 2010
Report No. 472
                                      Page 53
                                                  Appendix XI


                    Cyber Security Awareness Training

Figure 8: Cyber Security Awareness Training




Source: Department of Justice




2009 FISMA Executive Summary Report                March 26, 2010
Report No. 472
                                      Page 54
                                                                                            Appendix XII


                             Management Comments




                                              Memorandum

        Date:       March 9, 2010

       To:          David Kotz, Inspector General, OIG
                    Jacqueline Wilson, Assistant Inspector General, OIG

        From:       Charles Boucher, Chief Information Officer, OIT   ~C(}"";(1f4.
       Subject:     Management Response to OIG Report 472,2009 FISMA Executive Summary
                    Report


         The Office of Information Technology appreciates the opportunity to comment on the subject
       report. We are pleased that the OIG found no need for recommendations on "how the
       Commission has implemented its mandated information security requirements."




2009 FISMA Executive Summary Report                                                            March 26, 2010
Report No. 472
                                                Page 55
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
